HHS/OIG, Audit - "Administration on Agings Resolution of Audit
Recommendations," (A-07-06-03084)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Administration on
Agings Resolution of Audit Recommendations," (A-07-06-03084)
February 21, 2007
Complete Text of Report is available in PDF format (489 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Administration on Aging (AoA) had (1) resolved all audit recommendations as of December 31, 2005, and (2) resolved audit recommendations in a timely manner during calendar years (CY) 2003–2005.
As of December 31, 2005, AoA had not resolved 28 audit recommendations, all of which were within the allowable timeframe for resolution. During CYs 2003–2005, AoA resolved 291 of the 319 audit recommendations that were outstanding during this period. However, it did not resolve 207 of the 291 recommendations within the required 6-month period.
We recommended that AoA resolve all audit recommendations within 6 months of receiving the audit reports as required. AoA concurred with our recommendation.